HHS/OIG-Audit--"Adequacy of Medicare's Managed Care Payments After the Balanced Budget Act of 1997, (A-14-00-00212)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Adequacy of Medicare's Managed Care Payments After the Balanced Budget
Act of 1997," (A-14-00-00212)
September 18, 2000
Complete Text of Report is available in PDF format
(2.17 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The Balanced Budget Act (BBA) of 1997 modified the methodology used to determine
managed care organization (MCO) payments, partly because of concerns that many
MCOs were overcompensated. Many MCO industry representatives now claim that
the payment changes brought about by BBA were too severe. However, our final
report points out that numerous reviews by the Office of Inspector General show
otherwise. Among other things, our reviews showed; (1) the basis on which the
monthly capitation payment amounts were calculated were flawed, (2) Medicare
payments were being used to fund unnecessary administrative costs and excess
profits, (3) investment income was not accounted for by MCOs in the Medicare
payment formula, and (4) improper payments were made to MCOs for erroneously
classified beneficiaries. The cumulative impact of these issues is that MCOs
receive more than an adequate amount of funds to deliver the Medicare package
of covered services, i.e., those services received by 85 percent of Medicare
beneficiaries (those in the Medicare fee-for-service program). Therefore, we
recommended that HCFA consider all the financial related work we have completed
recently and use these studies and reviews to modify the present monthly rates
to a level fully supported by empirical data. The HCFA agreed with our overall
finding that MCO payments are adequate to fund the Medicare package of covered
services.